BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-994
VOLKSWAGEN GROUP OF AMERICA, INC., ET AL.,

Petitioners,
V.

THE ENVIRONMENTAL PROTECTION COMMISSION OF
HILLSBOROUGH COUNTY, FLORIDA, AND SALT LAKE
COUNTY, UTAH,

Respondents.
As required by Supreme Court Rule 33. l(h), I
certify that the Reply Brief for Petitioners contains
2,986 words, excluding the parts of the Petition that
are exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on April 6, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

